TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Taxpayer Assistance Blueprint Phase 2
                 Was Generally Reliable, but Oversight of the
                     Survey Design Needs Improvement



                                         February 5, 2008

                              Reference Number: 2008-40-059




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             February 5, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Taxpayer Assistance Blueprint Phase 2 Was
                             Generally Reliable, but Oversight of the Survey Design Needs
                             Improvement (Audit # 200740012.002)

 This report presents the results of our review to assess the accuracy and reliability of the data
 used to develop the Taxpayer Assistance Blueprint (TAB) Phase 2 report. This is the second
 phase of our review of the Taxpayer Assistance Blueprint. We conducted the first phase on the
 TAB Phase 1 report1 and reported that the majority of the information reviewed was accurate.

 Impact on the Taxpayer
 The TAB Phase 2 report outlines the Internal Revenue Service (IRS) strategic plan to enhance
 the services it provides to taxpayers. The IRS developed and implemented a Quality Assurance
 process that helped ensure the accurate and reliable reporting of information contained in the
 TAB Phase 2 report. However, improvements are needed to ensure that taxpayer survey results
 are reliable and consistent. As the IRS moves forward with its 5-year service delivery plan,
 inconsistencies in the surveys will put the plan at risk of improperly aligning service content,
 delivery, and resources with taxpayer and partner expectations.




 1
  The Strategic Improvement Themes in the Taxpayer Assistance Blueprint Phase I Report Appear to Be Sound;
 However, There Were Some Inaccurate Data in the Report (Reference Number 2007-40-078, dated May 18, 2007).
                      The Taxpayer Assistance Blueprint Phase 2 Was Generally
                            Reliable, but Oversight of the Survey Design
                                        Needs Improvement



Synopsis
In July 2005, Congress issued a report requesting that the IRS develop a 5-year plan for taxpayer
service activities;2 in November 2005, Congress requested that the IRS report to the House and
Senate subcommittees by April 14, 2006. The TAB Phase 2 report details research and analyses
efforts of the IRS and outlines the TAB Strategic Plan.
More than 100 data sources were developed to support
information contained in the TAB Phase 2 report. A
review of 29 judgmentally selected statements identified               Inaccuracies identified were
                                                                      not the result of errors in data
7 (24 percent) as inaccurate. However, none of the                        analyses but incorrect
inaccuracies were significant. Continued refinement in                    wording in the report.
the Quality Assurance process will ensure the accuracy
and reliability of results and conclusions being drawn
from the additional planned research.
Much of the understanding of taxpayer needs, preferences, and behaviors was developed from
responses to four surveys. Because the IRS had a limited time to issue the TAB Phase 1 and
Phase 2 reports, it decided to include the results of two existing surveys, along with the TAB
Conjoint II Study and the Opinion Survey of Taxpayer Resources and Services, to gain a better
understanding of taxpayer needs, preferences, and behaviors. The methods in which the surveys
were conducted, sampling methodologies, number of respondents, and time periods of the
                                            surveys differed. Therefore, at times the surveys
                                            produced very different estimates on closely related
    The IRS drew correct conclusions
                                            questions, making comparison among the four surveys
       based on the survey results
   included in the TAB Phase 2 report.      difficult.3
                                          The IRS acknowledged this and stated that it generally
                                          selected results from a single survey when illustrating
a predominant pattern and reporting results. Testing did not show that the IRS drew incorrect
conclusions based on the survey results included in the TAB Phase 2 report. Nevertheless, as the
IRS moves forward with additional research and surveys, it should ensure that the survey designs
and survey questions are more comparable so the results can be more effectively and efficiently
analyzed and used to draw conclusions and make decisions.
The four surveys were conducted with the assistance of outside contractors. Although one of the
contracts awarded included specific steps the contractor was to follow to ensure the

2
  United States Congress, Senate Report 109-109. Transportation, Treasury, The Judiciary, Housing and Urban
Development, and Related Agencies Appropriations Bill, 2006: Internal Revenue Service, Processing, Assistance
and Management, Committee Recommendation, July 26, 2005.
3
  Appendices IV and V detail the method in which the surveys were conducted and give examples of specific
questions with the different options for respondents.
                                                                                                                2
                   The Taxpayer Assistance Blueprint Phase 2 Was Generally
                         Reliable, but Oversight of the Survey Design
                                     Needs Improvement


completeness and accuracy of documentation compiled, the IRS did not ensure that these
required steps were followed. The contract required the contractor to (1) provide scanned
images of surveys to the IRS quarterly and (2) select and review 10 percent of the survey
responses to ensure the quality of the information being compiled. There was no documentation
that either action was completed.
As the IRS moves forward with its research and surveys, it should ensure that contractors comply
with documentation and quality standards. This will provide additional assurance as to the
usability and reliability of the results and the conclusions drawn from them.

Recommendations
The Commissioner, Wage and Investment Division, should ensure: (1) the Quality Assurance
process and requirements are thoroughly documented and formalized, (2) survey instruments are
consistent to enable comparisons of results and reliable conclusions, and (3) contractors maintain
adequate documentation supporting the results of the survey and have a process in place to
ensure the accuracy of the information being compiled and provided to the IRS.

Response
IRS management agreed with all of our recommendations. Management will incorporate the
Quality Assurance process and requirements implemented during the TAB Phase 2 report into
their Research and Analysis Project Guidelines. They will document the substantive procedures
for review of text results, use and application of methodology, and detail the variety of data
analyses. Management will define standard demographic criteria for use in future TAB-related
research and is reviewing a number of surveys to clarify wording of standard questions, such as
for demographic information and questions relating to taxpayer satisfaction. Finally, for future
Wage and Investment Division, Office of Research and Analysis contracts, management will
require that contractors providing support to develop, administer, and analyze surveys that will
employ a robust quality assurance process and document the basis of the survey results.
Management’s complete response to the draft report is included as Appendix VI.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                   3
                          The Taxpayer Assistance Blueprint Phase 2 Was Generally
                                Reliable, but Oversight of the Survey Design
                                            Needs Improvement




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          An Improved Quality Assurance Process Helped Ensure the Reliability
          and Accuracy of Data....................................................................................Page 4
                    Recommendation 1:........................................................Page 5

          Improvements Are Needed to Ensure That Taxpayer Survey Results Are
          Reliable and Consistent.................................................................................Page 5
                    Recommendations 2 and 3: ..............................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Inconsistent Survey Questions – How Taxpayers
          Contacted the Internal Revenue Service ......................................................Page 15
          Appendix V – Inconsistent Survey Questions – Who Prepared
          Taxpayers’ Tax Returns................................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 22
      The Taxpayer Assistance Blueprint Phase 2 Was Generally
            Reliable, but Oversight of the Survey Design
                        Needs Improvement




                   Abbreviations

IRS          Internal Revenue Service
TAB          Taxpayer Assistance Blueprint
                      The Taxpayer Assistance Blueprint Phase 2 Was Generally
                            Reliable, but Oversight of the Survey Design
                                        Needs Improvement




                                            Background

In July 2005, Congress issued a report requesting that the Internal Revenue Service (IRS)
develop a 5-year plan for taxpayer service activities;1 in November 2005, Congress requested that
the IRS report to the House and Senate subcommittees by April 14, 2006. The plan was to
include strategic, quantitative long-term goals that balance enforcement and service activities.2
The Senate Committee Report stated the plan should outline the services the IRS should provide
to improve service to taxpayers. The plan was also to detail how the IRS intends to meet the
service needs on a geographic basis and address how it would improve taxpayer service based on
reliable data. The plan was to be developed with the IRS Oversight Board3 and the National
Taxpayer Advocate.4
On April 24, 2006, the IRS issued its Taxpayer Assistance Blueprint (TAB) Phase 1 report,
which presented the following five strategic improvement themes:

                                     Strategic Improvement Themes
     1. Improve and expand education and awareness activities.
     2. Optimize the use of partner services.
     3. Elevate self-service options to meet taxpayer expectations.
     4. Improve and expand training and support tools to enhance assisted services.
     5. Develop short-term performance and long-term outcome goals and metrics.
    Source: The TAB Phase 1 report.




1
  United States Congress, Senate Report 109-109. Transportation, Treasury, The Judiciary, Housing and Urban
Development, and Related Agencies Appropriations Bill, 2006: Internal Revenue Service, Processing, Assistance
and Management, Committee Recommendation, July 26, 2005.
2
  United States Congress, Conference Report 109-307. Joint Explanatory Statement of the Committee of
Conference: Internal Revenue Service, Processing Assistance, and Management (Including Rescission of Funds),
November 14, 2005.
3
  A nine-member independent body charged with overseeing the IRS in its administration, management, conduct,
direction, and supervision of the execution and application of the internal revenue laws and to provide experience,
independence, and stability to the IRS so it may move forward in a cogent, focused direction.
4
  The National Taxpayer Advocate heads the Taxpayer Advocate Service, which is an independent organization
within the IRS whose employees assist taxpayers who are seeking help in resolving tax problems that have not been
resolved through normal channels.
                                                                                                           Page 1
                      The Taxpayer Assistance Blueprint Phase 2 Was Generally
                            Reliable, but Oversight of the Survey Design
                                        Needs Improvement



We conducted an audit on the TAB Phase 1 report5 and reported that the majority of the
information reviewed was accurate. However, inaccuracies in the report related to changes in
Taxpayer Assistance Center6 visits and the number of telephone calls answered. In addition, the
IRS did not ensure consistency between income and generational analyses and conclusions. The
inconsistencies relating to income and generational segmentation did not affect the resulting
strategic improvement themes outlined in the TAB Phase 1 report.
IRS management responded that, prior to the completion of our TAB Phase 1 audit report, a
thorough Quality Assurance process was developed and implemented for the TAB Phase 2
report. Experienced analysts validated information in the TAB Phase 2 report, including all
citations, reference documents, and data presented. This Quality Assurance process was also
thoroughly documented. The IRS believes the result is an accurate and well-documented
TAB Phase 2 report.
Overview of the TAB Phase 2 report
Issued in April 2007, the TAB Phase 2 report details the IRS’
research and analyses efforts and outlines the TAB Strategic
Plan, which is the future of service delivery as envisioned
collaboratively by the IRS, the Oversight Board, and the National
Taxpayer Advocate. Within the scope of the TAB Strategic Plan,
portfolios of service improvements, performance measures, and
additional research projects comprise a solid foundation for the
future of service at the IRS. The research results presented are
not exhaustive or all-inclusive but instead focus on presenting
baselines, trends, and tendencies. The work started with the TAB
will continue as the IRS works to expand and refine its
knowledge.
The TAB Phase 2 report identifies the following five areas for
improvement of IRS service delivery within the strategic
environment to increase value to all stakeholders.
1. Channel and Service Capability
Goal: Align service tasks and channels with the most effective and efficient methods of delivery
possible.




5
  The Strategic Improvement Themes in the Taxpayer Assistance Blueprint Phase I Report Appear to Be Sound;
However, There Were Some Inaccurate Data in the Report (Reference Number 2007-40-078, dated May 18, 2007).
6
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                        Page 2
                   The Taxpayer Assistance Blueprint Phase 2 Was Generally
                         Reliable, but Oversight of the Survey Design
                                     Needs Improvement



2. Channel and Service Performance
Goal: Strengthen performance across services and channels by improving first contact
resolution, promptness of service, and accuracy of information.
3. Channel and Service Awareness
Goal: Improve awareness of services and channels to taxpayers and partners to facilitate their
choice of the most effective and efficient service delivery options.
4. Burden Reduction
Goal: Reduce burden to taxpayers and partners by improving the effectiveness and efficiency of
service delivery.
5. Migration to the Electronic Channel and Services
Goal: Enhance stakeholder value by helping to move taxpayers and partners who are willing
and able to specific services that are most effectively and efficiently delivered through the
electronic channel.
The TAB Phase 2 report provides an analysis of current IRS services and channels, along with
taxpayer needs, preferences, and behaviors resulting from four surveys. It also presents guiding
principles and a strategic plan for taxpayer services. The TAB Strategic Plan includes
performance measures, service improvements portfolios, and an implementation strategy.
This review was performed at the IRS Wage and Investment Division, Taxpayer Services
Program Management Office and the Strategy and Finance function Research Office in Atlanta,
Georgia, during the period April through October 2007. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 3
                   The Taxpayer Assistance Blueprint Phase 2 Was Generally
                         Reliable, but Oversight of the Survey Design
                                     Needs Improvement




                                Results of Review

An Improved Quality Assurance Process Helped Ensure the Reliability
and Accuracy of Data
In response to inaccuracies and inconsistencies identified during our review of the TAB Phase 1
report, the IRS developed and implemented a Quality Assurance process that helped ensure the
accurate and reliable reporting of information for the TAB Phase 2 report. In addition, the
process facilitated an independent third-party assessment. The Quality Assurance process
included the following actions:
•   Training personnel involved in the various stages of the report’s development process,
    including personnel responsible for performing the research detailed in the report, indexing
    information in the report to supporting documentation, and quality reviewing the report for
    accuracy.
•   Requiring an indepth review and verification of the
    report text, data points, charts, and footnotes. In          More than 100 data sources
    addition, computer links were verified as being               were developed to support
                                                                 information contained in the
    accurate with source documents required to be located            TAB Phase 2 report.
    and touched to verify their existence and the accuracy
    of the information the documentation supported.
•   Developing a Quality Review Template that tracks
    citations (statements supported by footnotes) from the report, including the names of the
    individuals who performed the Quality Assurance process reviews of the citations and the
    steps taken to review them.
•   Developing a template, called an analytic, to assist in an independent review of the
    TAB Phase 2 report and its supporting documentation. Research analysts were required to
    develop the analytic that details the specific methodology and steps the analysts followed to
    arrive at their research results. The analytic provided our auditors with an understandable
    path to the research results supporting the TAB Phase 2 report, thus reducing the time it took
    to review the documentation and validate the results.
More than 100 data sources were developed to support information contained in the TAB Phase
2 report. A review of 29 judgmentally selected statements identified 7 (24 percent) as
inaccurate. However, none of the inaccuracies were significant. One inaccuracy had been
previously identified by IRS Quality Assurance process reviewers, but the IRS decided not to
call the report back from printing because the inaccuracy was insignificant. In addition, the

                                                                                            Page 4
                    The Taxpayer Assistance Blueprint Phase 2 Was Generally
                          Reliable, but Oversight of the Survey Design
                                      Needs Improvement



inaccuracies identified were not the result of errors in the data analyses but rather incorrect
wording in the report.
Nevertheless, improvements can be made to further increase the effectiveness of the Quality
Assurance process. Although a number of training courses were held, written guidance was not
always provided to analysts to explain how to document
their data analyses, which at times can be complex.          Improvements can be made to
Without written guidance, documentation may not be                 further increase the
complete and independent reviewers may not have the           effectiveness of the Quality
required information to reach the same conclusions. In             Assurance process.
addition, documentation was not always maintained to
support the steps performed during the Quality
Assurance process. In five instances, we were unable to determine what actions the Quality
Assurance process reviewers performed to validate the specific statements.
The IRS has included a request for $15 million in its Fiscal Year 2008 budget to conduct
additional research, which included measuring the effect of service on taxpayer compliance.
Continued refinement in the Quality Assurance process will ensure the accuracy and reliability
of results and conclusions being drawn from the additional planned research.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure the Quality Assurance process and requirements are thoroughly
documented and formalized. The written guidelines should require a documented process
detailing the review of text results, the development of analytics detailing specific methodology
and steps taken when performing data analyses, and a process to ensure that analysts are
adhering to documentation requirements.
       Management’s Response: IRS management agreed with this recommendation.
       Management will incorporate the Quality Assurance process and requirements
       implemented during the TAB Phase 2 report into their Research and Analysis Project
       Guidelines. They will document the substantive procedures for review of text results,
       use and application of methodology, and detail the variety of data analyses.
       Documentation requirements will be highlighted throughout the written Quality
       Assurance guidelines and will focus on the core principle of reproducibility of results.

Improvements Are Needed to Ensure That Taxpayer Survey Results
Are Reliable and Consistent
Much of the IRS’ understanding of taxpayer needs, preferences, and behaviors was developed
from responses to four surveys. Only two surveys, the TAB Conjoint II Study and the Opinion

                                                                                              Page 5
                       The Taxpayer Assistance Blueprint Phase 2 Was Generally
                             Reliable, but Oversight of the Survey Design
                                         Needs Improvement



Survey of Taxpayer Resources and Services, were commissioned specifically for the TAB. The
other two surveys were developed outside the TAB strategy.
•   The Taxpayer Customer Service and Channel Preference Survey was conducted to
    understand taxpayer use of and preferences for IRS service channels.7 Analyses of responses
    also identified taxpayer attitudes toward tax service and administration in general. Survey
    data were gathered from 1,101 respondents during the period March 19 through
    April 13, 2006.
•   The TAB Conjoint II Study was conducted to determine taxpayer preferences for contacting
    the IRS to resolve tax-related issues and for assistance with tax return preparation and filing.
    The survey also gathered information about taxpayers’ past experiences contacting the IRS.
    Survey data were gathered from 2,196 respondents during the period June 23 through
    July 5, 2006.
•   The Opinion Survey of Taxpayer Resources and Services was conducted to gain insight about
    taxpayer awareness of, prior use of, expectations for, and future willingness to use IRS and
    non-IRS tax-related resources and services. Survey data were gathered from
    8,160 respondents during August 2006.
•   The 2006 Wage and Investment Market Segment Survey was conducted to help the IRS
    understand taxpayer needs, preferences, and behaviors; reveal use and acceptance of key
    Wage and Investment Division products and services; and provide feedback for education
    and outreach functions. Survey data were gathered from 3,114 respondents during the period
    June through August 2006.
The Taxpayer Customer Service and Channel Preference Survey was commissioned by the
Oversight Board. The remaining three surveys were either commissioned or conducted by the
IRS.

The surveys were not consistently designed, making comparisons difficult
Because the IRS had a limited time to issue the TAB
Phase 1 and Phase 2 reports, it decided to include the
                                                                        Comparison of surveys was difficult
results of two surveys developed outside the TAB                       because different methods were used
strategy, along with the results of the TAB Conjoint II                   to conduct the surveys, similar
Study and the Opinion Survey of Taxpayer Resources                      questions were worded differently,
and Services, to gain a better understanding of                            and/or taxpayers were offered
taxpayer needs, preferences, and behaviors. However,                     different choices of responses for
                                                                                 similar questions.
the methods in which the surveys were conducted,
sampling methodologies, number of respondents, and

7
 Service channels are the means for obtaining taxpayer services, including telephone, face-to-face, electronic, and
written correspondence.
                                                                                                             Page 6
                        The Taxpayer Assistance Blueprint Phase 2 Was Generally
                              Reliable, but Oversight of the Survey Design
                                          Needs Improvement



time periods of the surveys differed. At times, the surveys produced very different estimates on
closely related questions, making a comparison among the four surveys difficult.8 The IRS
acknowledged this and stated that it generally selected results from a single survey when
illustrating a predominant pattern and reporting results included in the TAB Phase 2 report.
Overall, IRS conclusions from the survey results included in the TAB Phase 2 report appeared to
be sound. Nevertheless, the following four examples demonstrate the differences in the surveys
and the challenges the IRS had in attempting to analyze and compare the results.
Example 1: In an attempt to identify the percentage of taxpayers who had contacted the IRS
during a given time period, the IRS used questions from each of the four surveys. The results
varied from 27 percent to 43 percent. The IRS acknowledged the Opinion Survey of Taxpayer
Resources and Services low estimate and concluded the lower estimate likely occurred because
the Survey’s questions covered a short time interval and the Survey did not include contacts with
respondents after they had filed their Tax Year 2005 tax returns. Figure 1 presents a comparison
of the questions, the related choices, the different time periods covered, and the results.
               Figure 1: Percentage of Taxpayers Who Had Contacted the IRS

                                                                                  Time       Percentage of
                 Survey                     Sources and Service Channels          Period     Taxpayers
                                         Email, IRS Telephone, IRS Office         Past 2       41 percent
    The Taxpayer Customer Service
                                         Visit, IRS Web Site, Postal Service      Years
    and Channel Preference Survey
    asked respondents 1 question on
     whether they had contacted the
      IRS in the last 2 years for any
     reason. Five service channels
    were provided for respondents to
                  select.

    The TAB Conjoint II Study asked      IRS Telephone, IRS Office Visit, IRS     Past 2        41 percent
    respondents 4 separate questions     Web Site, Postal Service                 Years
    about service channels they had
    used in the last 2 years. Each of
    the four questions was specific to
    a service channel.




8
 Appendices IV and V detail the methods in which the surveys were conducted and give examples of specific
questions with the different options for respondents.
                                                                                                       Page 7
                        The Taxpayer Assistance Blueprint Phase 2 Was Generally
                              Reliable, but Oversight of the Survey Design
                                          Needs Improvement



                                                                                      Time       Percentage of
                  Survey                     Sources and Service Channels             Period     Taxpayers
    The Opinion Survey of Taxpayer        Accountant, Books, Email, IRS Forms         Filing       27 percent
    Resources and Services asked          and Publications, IRS Kiosk, IRS            Season
    respondents to select the             Office Visit, IRS Telephone, IRS Web        200610
    resources and services used           Site, Non-IRS Web Site, Postal
    when completing their Tax Year        Service, Tax Preparation Company,
    2005 returns. Sixteen choices         Tax Preparation Software, Volunteer
    (including six sources and seven      Tax Preparation
    IRS service channels) were
    provided for respondents to
    select.9
    The 2006 Wage and Investment          Accountant, Bank, Copy Center,              Past 1        43 percent
    Market Segment Survey asked           Email, Employer, IRS Kiosk, IRS             year
    eight separate questions.             Telephone, IRS Office Visit, IRS Web
                                          Site, Library, Other Government
    •   Four questions asked if           Office, Non-IRS Web Site, Postal
        respondents had contacted         Service, Some Other Place, Tax
        the IRS in the past year.         Preparation Software, Volunteer Tax
    •   One question asked                Preparation
        respondents how they had
        handled the most recent
        notice.
    •   One question asked
        respondents to identify where
        they had obtained their tax
        forms and instructions.
        Fifteen choices11 (including 10
        non-IRS channels and 3 IRS
        service channels) were
        provided.




9
  The two choices “I did not use any of the above resources or services” and “Not applicable” were not included in
Figure 1. In addition, the two choices for the toll-free telephone operations (automated and representative) are
reflected under the category of telephone. Some choices are repeated in different questions. See Appendix IV for
questions.
10
   Filing Season is the period from January through mid-April when most individual income tax returns are filed.
11
   The two choices “Do not know” and “Refused” were not included in Figure 1. See Appendix IV for questions.
                                                                                                            Page 8
                      The Taxpayer Assistance Blueprint Phase 2 Was Generally
                            Reliable, but Oversight of the Survey Design
                                        Needs Improvement



                                                                                     Time        Percentage of
               Survey                      Sources and Service Channels              Period      Taxpayers
 •   Two questions asked if there
     was a need to contact the
     IRS for assistance with their
     tax returns and, if so, how
     they had contacted the IRS.
     Seven service channels were
     provided for selection.12


 TAB Phase 2 Report Conclusion: Between 41 percent and 43 percent of all taxpayers
 contacted the IRS directly for help over a 1-year to 2-year period.
Source: The 2007 TAB Phase 2 report and related surveys.

Example 2: The Opinion Survey of Taxpayer Resources and Services asked respondents about
customer service channels about which they had little knowledge or experience, while the
2006 Wage and Investment Market Segment Survey did not ask respondents to evaluate or even
respond to questions regarding IRS customer service channels they had not used.
Example 3: All four surveys included questions to determine how taxpayers prepared their tax
returns, but each survey provided respondents with different choices.13
•    The Taxpayer Customer Service and Channel Preference Survey asked respondents what
     main individual prepared their Federal tax returns. Seven choices were provided.
•    The TAB Conjoint II Study asked respondents what main person prepared their most recent
     tax returns. Three choices were provided.
•    The Opinion Survey of Taxpayer Resources and Services asked respondents to select the
     resources and services used when completing their Tax Year 2005 returns. Sixteen choices
     were provided.
•    The 2006 Wage and Investment Market Segment Survey asked respondents who prepared
     their tax returns. Eight choices were provided.
Example 4: The number of respondents for the 4 surveys varied from more than 1,000 to more
than 8,000, making it difficult to compare the percentages among them and to analyze the overall
results. The IRS’ attempt to analyze the results for similar questions in different surveys resulted
in different percentages (see Figure 1). The IRS, for example, would choose to use the responses
from the survey with the highest population or number of respondents, assuming the higher the


12
   Three of the 7 channels were also included in the 16 choices shown. Some choices are repeated in different
questions. See Appendix IV for examples of questions.
13
   See Appendix V for a list of questions and choices.
                                                                                                           Page 9
                   The Taxpayer Assistance Blueprint Phase 2 Was Generally
                         Reliable, but Oversight of the Survey Design
                                     Needs Improvement



population of respondents, the lower the margin of error. However, there are statistical methods
to test whether two percentages from different populations are equal.
Considerable effort and resources were used to administer the surveys, analyze the results, and
draw conclusions that could be used to make decisions on taxpayer service delivery. As the IRS
moves forward with additional research and surveys, it should ensure that the survey designs and
survey questions are consistent and more comparable. Consistency will ensure that the survey
results can be more effectively and efficiently analyzed and used to draw conclusions and make
decisions.

The IRS should ensure that contractors follow documentation and quality
assurance requirements for the surveys
The four surveys were conducted with the assistance of outside contractors. Although one of the
contracts awarded included specific steps the contractor must follow to ensure the completeness
and accuracy of documentation compiled, the IRS did not ensure that these required steps were
followed.
During tests of the data for one survey, auditors identified blank responses (respondents did not
appear to answer the questions). Auditors attempted to obtain copies of the survey responses to
determine the reason for the blank responses and how they affected survey results. The contract
required the contractor to (1) provide scanned images of surveys quarterly and (2) select and
review 10 percent of the survey responses to ensure the quality of the information being
compiled. There was no documentation that either action was completed. The scanned images
were destroyed along with the hard copies of the surveys. As a result, our auditors were unable
                                        to validate the overall results of the survey. In addition,
                                        because the contractor did not complete the required
   One contractor did not perform       10 percent review of the survey responses, the risk
    steps to ensure that data were      increases that the survey results are misleading or
       accurate and complete.
                                        inaccurate.
                                       Internal controls should be in place to ensure that
management’s directives are carried out. Control activities should occur at all levels and
functions and include a wide range of activities, including creation and maintenance of related
records that provide evidence of the execution of these activities as well as appropriate
documentation.
As the IRS moves forward with its research and surveys, it should ensure that contractors comply
with documentation and quality standards. This will provide additional assurance as to the
usability and reliability of the results and the conclusions drawn from them.




                                                                                            Page 10
                   The Taxpayer Assistance Blueprint Phase 2 Was Generally
                         Reliable, but Oversight of the Survey Design
                                     Needs Improvement



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Ensure survey instruments are consistent to enable comparisons of
results and reliable conclusions.
       Management’s Response: IRS management agreed with this recommendation.
       Management will define standard demographic criteria for use in future TAB-related
       research and is reviewing a number of surveys to clarify wording of standard questions,
       such as for demographic information and questions relating to taxpayer satisfaction.
Recommendation 3: Ensure contractors maintain adequate documentation supporting the
results of the survey and have a process in place to ensure the accuracy of the information being
compiled and provided to the IRS.
       Management’s Response: IRS management agreed with this recommendation. For
       future Wage and Investment Division, Office of Research and Analysis contracts, they
       will require that contractors providing support to develop, administer, and analyze
       surveys employ a robust quality assurance process and document the basis of the survey
       results.




                                                                                          Page 11
                    The Taxpayer Assistance Blueprint Phase 2 Was Generally
                          Reliable, but Oversight of the Survey Design
                                      Needs Improvement



                                                                                      Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the accuracy and reliability of the data used to develop the
TAB Phase 2 report. To accomplish this objective, we:
I.     Assessed the reliability of the IRS Quality Assurance process followed for validating
       information included in the TAB Phase 2 report.
       A.   Met with IRS officials to discuss the process followed for validating the TAB Phase 2
            report.
       B.   Selected a judgmental sample of 29 statements from the 5 sections of the Tab Phase 2
            report and reviewed supporting documentation provided by the IRS to determine if
            the information contained evidence that the data were validated. The judgmental
            sample included both income and generational segmentation, which were issues in the
            prior Treasury Inspector General for Tax Administration report.
       C.   Validated a judgmental sample of 29 statements by following the IRS’ methodology
            to ensure that the output was the same as the IRS results and, in addition, determined
            if the information contained evidence that the data were accurate.
II.    Determined if documentation and validation standards exist and were incorporated into the
       Wage and Investment Division Research function analyses of data by identifying IRS and
       Federal Government-wide standards.
III.   Determined the accuracy of the statements cited in the TAB Phase 2 report.
       A.   From the judgmental sample of 29 statements reflected in the TAB Phase 2 report,
            identified the source information supporting the statements.
       B.   Reviewed the source documents provided by the IRS to determine the accuracy of the
            source data and the accuracy of the TAB Phase 2 report statements.
IV.    Assessed the methodology and performance of the four major surveys.
       A.   Provided survey methodology and results to a contract statistician to assess the
            methodology and performance of the four surveys.
       B.   Provided survey results to an external statistician to review the results, to determine if
            weighting and projection are sound.




                                                                                              Page 12
                 The Taxpayer Assistance Blueprint Phase 2 Was Generally
                       Reliable, but Oversight of the Survey Design
                                   Needs Improvement



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Lena Dietles, Lead Auditor
Pamela DeSimone, Senior Auditor
Lynn Faulkner, Senior Auditor
Robert Howes, Senior Auditor
Kathy Coote, Auditor
Roberta Fuller, Auditor
Kevin O’Gallagher, Information Technology Specialist




                                                                                   Page 13
                  The Taxpayer Assistance Blueprint Phase 2 Was Generally
                        Reliable, but Oversight of the Survey Design
                                    Needs Improvement



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Taxpayer Services Program Management Office, Wage and Investment Division
SE:W:TSPMO
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 14
                    The Taxpayer Assistance Blueprint Phase 2 Was Generally
                          Reliable, but Oversight of the Survey Design
                                      Needs Improvement



                                                                                 Appendix IV

    Inconsistent Survey Questions – How Taxpayers
        Contacted the Internal Revenue Service

The following survey questions demonstrate the different methodologies in which the surveys
were conducted and provide examples of specific questions with the different options for
respondents.
Taxpayer Customer Service and Channel Preference Survey: This survey was
conducted by telephone using random digit dialing.
Did you contact the IRS in any of the following ways in the last 2 years for any reason?
  a. Called the IRS on the telephone.
    Yes
    No
    Do not know
  b. Visited an IRS office for in-person help.
    Yes
    No
    Do not know
  c. Wrote an email to the IRS.
    Yes
    No
    Do not know
  d. Visited the IRS web site, other than to file taxes.
    Yes
    No
    Do not know
  e. Sent the IRS a letter in the mail, other than to file taxes.
    Yes
    No
    Do not know



                                                                                           Page 15
                      The Taxpayer Assistance Blueprint Phase 2 Was Generally
                            Reliable, but Oversight of the Survey Design
                                        Needs Improvement



TAB Conjoint II Study: This survey was conducted through the Internet or via television top
box (provided to those without computer access).
Have you visited a local IRS office for any reason in the last 2 years (24 months)?
     Yes
     No
Have you tried calling the IRS Toll Free telephone line in the last 2 years?
     Yes
     No
Have you visited the IRS web site in the last 2 years?
     Yes
     No
The IRS also answers questions through regular mail. Have you sent a letter to the IRS with a
tax question in the last 2 years?
     Yes
     No
Opinion Survey of Taxpayer Resources and Services: This survey was conducted
using questionnaires mailed to taxpayers and returned by mail.
Which of the following tax resources and services, if any, did you use when completing your
2005 tax return? (The respondent was instructed to select all answers that applied).
    1. IRS forms and instruction booklets.
    2. IRS web site (www.irs.gov).
    3. IRS Taxpayer Assistance Centers1 (walk-in sites).
    4. Automated IRS telephone system.
    5. IRS telephone representatives.
    6. Email with the IRS.
    7. Written correspondence with the IRS (other than email).
    8. IRS Kiosk (similar to an Automated Teller Machine).
    9. Volunteer tax preparation clinics.
    10. Tax preparation company.
    11. Non-IRS books and publications.
    12. Personal accountant/bookkeeper.
    13. Tax preparation software.


1
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                         Page 16
                     The Taxpayer Assistance Blueprint Phase 2 Was Generally
                           Reliable, but Oversight of the Survey Design
                                       Needs Improvement



   14. Internet web sites (other than the IRS web site).
   15. I did not use any of the above resources or services.
   16. Not applicable. I was not required to file a 2005 tax return.
2006 Wage and Investment Market Segment Survey: This survey was conducted by
telephone using a computer-assisted interview system.
Where did you go to get your forms and instructions about filing your 2005 taxes? (The
respondent was instructed to select all answers that applied).
   1. Accountant or tax preparer.
   2. Bank.
   3. Copy center.
   4. Employer or workplace.
   5. IRS office.
   6. IRS toll-free telephone line.
   7. IRS web site.
   8. Other web site (non-IRS).
   9. Library.
   10. Other Government office.
   11. Post office.
   12. Tax preparation software, for example Turbo Tax.
   13. Some other place.
   14. Do not know.
   15. Refused.
Did you need to contact the IRS about preparing your 2005 tax return?
   •       Yes.
   •       No.
   •       Do not know.
   •       Refused.
How did you contact the IRS for help with your 2005 taxes?
  1. Called the IRS Toll-Free telephone line?
       •    Yes.
       •    No.
       •    Do not know.
       •    Refused.




                                                                                         Page 17
                The Taxpayer Assistance Blueprint Phase 2 Was Generally
                      Reliable, but Oversight of the Survey Design
                                  Needs Improvement



2. Visited the local IRS office (Taxpayer Assistance Center)?
  •   Yes.
  •   No.
  •   Do not know.
  •   Refused.
3. Emailed the IRS?
  •   Yes.
  •   No.
  •   Do not know.
  •   Refused.
4. Sent regular mail to the IRS?
  •   Yes.
  •   No.
  •   Do not know.
  •   Refused.
5. Visited the IRS web site?
  •   Yes.
  •   No.
  •   Do not know.
  •   Refused.
6. Used volunteers trained by the IRS that provide free tax preparation?
  •   Yes.
  •   No.
  •   Do not know.
  •   Refused.
7. Used an IRS kiosk, which is like a bank automatic teller machine?
  •    Yes.
  •    No.
  •    Do not know.
  •    Refused.




                                                                           Page 18
                      The Taxpayer Assistance Blueprint Phase 2 Was Generally
                            Reliable, but Oversight of the Survey Design
                                        Needs Improvement



In the past year, have you called any IRS Toll-Free telephone line FOR ANY REASON?
       •    Yes.
       •    No.
       •    Do not know.
       •    Refused.
In the past year, have you visited the IRS web site for any reason?
   •       Yes.
   •       No.
   •       Do not know.
   •       Refused.
After you filed your 2005 tax return did you contact the IRS, including checking the IRS web site,
about your refund or receipt of your return?
   •       Yes.
   •       No.
   •       Do not know.
   •       Refused.
How did you handle the most recent notice?
   •       Contacted the IRS yourself.
   •       Had someone else handle it.
   •       Both.
   •       Did nothing regarding the notice.
In addition to any interaction with the IRS that we have already discussed, have you contacted
the IRS for the following 3 reasons in the past 12 months?
a. To get information about payments.
  Yes.
  No.
b. To obtain a prior year’s tax return.
  Yes.
  No.
c. To obtain an employer or individual tax identification number.
  Yes.
  No.


                                                                                          Page 19
                   The Taxpayer Assistance Blueprint Phase 2 Was Generally
                         Reliable, but Oversight of the Survey Design
                                     Needs Improvement



                                                                                 Appendix V

      Inconsistent Survey Questions – Who Prepared
                 Taxpayers’ Tax Returns

The following survey questions demonstrate the different methodologies in which the surveys
were conducted and provide examples of specific questions with the different options for
respondents.
Taxpayer Customer Service and Channel Preference Survey: This survey was
conducted by telephone using random digit dialing.
Who was the main individual that prepared your Federal tax return?
   1. You (SELF PREPARER).
   2. Another family member in the household. (If the respondent made this response, the
      surveyor was instructed to ask to speak with that person and restart interview).
   3. A paid tax preparer.
   4. The IRS.
   5. A volunteer, such as someone working at a Volunteer Income Tax Assistance or Tax
      Counseling for the Elderly site.
   6. Other.
   7. Do not know.
TAB Conjoint II Study: This survey was conducted through the Internet or via television top
box (provided to those without computer access).
Who was the main person who prepared your most recent tax return? (The respondent was
instructed to select only one answer).
   1. You (yourself).
   2. A paid preparer.
   3. An unpaid preparer (friend, relative, colleague, or IRS representative at a Volunteer
      Income Tax Assistance site).
Opinion Survey of Taxpayer Resources and Services: The survey was conducted
using questionnaires mailed to taxpayers and returned by mail.
Which of the following tax resources and services, if any, did you use when completing your
2005 tax return? (The respondent was instructed to select all answers that applied).
   1. IRS forms and instruction booklets.
   2. IRS web site (www.irs.gov).

                                                                                         Page 20
                      The Taxpayer Assistance Blueprint Phase 2 Was Generally
                            Reliable, but Oversight of the Survey Design
                                        Needs Improvement



    3. IRS Taxpayer Assistance Centers1 (walk-in sites).
    4. Automated IRS telephone system.
    5. IRS telephone representatives.
    6. Email with the IRS.
    7. Written correspondence with the IRS (other than email).
    8. IRS Kiosk (similar to an Automated Teller Machine).
    9. Volunteer tax preparation clinics.
    10. Tax preparation company.
    11. Non-IRS books and publications.
    12. Personal accountant/bookkeeper.
    13. Tax preparation software.
    14. Internet web sites (other than the IRS web site).
    15. I did not use any of the above resources or services.
    16. Not applicable. I was not required to file a 2005 tax return.
2006 Wage and Investment Market Segment Survey: This survey was conducted by
telephone using a computer-assisted interview system.
Who was the main person who prepared your taxes?
    1.   You (yourself).
    2.   A friend or family member (relative).
    3.   The IRS.
    4.   A volunteer (at a Volunteer Income Tax Assistance or Tax Counseling for the Elderly site
         where volunteers prepare your taxes).
    5.   A paid tax professional, such as an accountant or a tax preparation firm.
    6.   (Spanish-only) Notario.2
    7.   Respondent did not know.
    8.   Respondent refused to answer.




1
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
2
  The translation from Spanish to English is notary public.
                                                                                                         Page 21
     The Taxpayer Assistance Blueprint Phase 2 Was Generally
           Reliable, but Oversight of the Survey Design
                       Needs Improvement



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 22
The Taxpayer Assistance Blueprint Phase 2 Was Generally
      Reliable, but Oversight of the Survey Design
                  Needs Improvement




                                                    Page 23
The Taxpayer Assistance Blueprint Phase 2 Was Generally
      Reliable, but Oversight of the Survey Design
                  Needs Improvement




                                                    Page 24
